BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Donna J. Wolf, hereby certify that 40 copies and
1 unbound copy of the foregoing Brief of Amici Curiae
The Institute for Faith and Family and The
International Conference of Evangelical Chaplain
Endorsers in Support of Petitioners in 19-123,
Sharonell Fulton, et al. v. City of Philadelphia,
Pennsylvania, et al., were sent via Two Day Service to
the U.S. Supreme Court, and 3 copies were sent via
Two Day Service and e-mail to the following parties
listed below, this 28th day of May, 2020:
Mark Leonard Rienzi
The Becket Fund for Religious Liberty
1200 New Hampshire Ave., NW
Suite 700
Washington, DC 20036
(202) 507-0834
rienzi@law.edu
mrienzi@becketlaw.org

Counsel for Petitioners
Leslie Cooper
American Civil Liberties Union
125 Broad Street
New York, NY 10004
(212) 519-7815
lcooper@aclu.org

Counsel for Intervenor Support Center for Child
Advocates and Philadelphia Family Pride

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001
www.beckergallagher.com

8790 Governor's Hill Drive

Franklin Square

Suite 102

1300 I Street, NW, Suite 400E

Cincinnati, Ohio 45249

Washington, DC 20005

Neal Kumar Katyal
Hogan Lovells US LLP
555 Thirteenth St., N.W.
Washington, DC 20004
(202) 637-5528
neal.katyal@hoganlovells.com

Counsel for Respondents City of Philadelphia,
Department of Human Services for the City of
Philadelphia, Philadelphia Commission on Human
Relations
Deborah J. Dewart
Counsel of Record
620 E. Sabiston Drive
Swansboro, NC 28584-967 4
(910) 326-4554
debcpalaw@earthlink.net
Tami Fitzgerald
The Institute for Faith and Family
9650 Strickland Road
Suite 103-222
Raleigh, NC 27615
(980) 404-2880
tfitzgerald@ncvalues.org
Arthur A. Schulcz, Sr.
Chaplains' Counsel, PLLC
21043 Honeycreeper PL
Leesburg, Virginia 20175
(703) 645-4010
art@chaplainscounsel.com

Counsel for Amici Curiae

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on May 28, 2020.

tJ

Donna J. Wol
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.
Date:

Notary

~ J-cr., atJdD

Ppt ~' ~

[seal]

,J(JHN D G,-\Ll 1lJHER
r~otary Public Staie of Ohio

My Commission Expires
February 14, 2023

